STATEOFNEWYORK
OFFICE OF THE ATTORNEY GENERAL
BARBARA D. UNDERWOOD

LETITIA JAMES

SOLICITOR GENERAL

ATTORNEY GENERAL

DIVISION OF APPEALS

&

OPINIONS

November 20, 2020
The Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

United States Department of Homeland Security v. State of New York,
No. 20-449

Dear Mr. Harris:
I write on behalf of respondents the States of New York, Connecticut, and
Vermont and the City of New York ("Government Respondents") to request an extension
of time to oppose the petition for a writ of certiorari in this matter, which involves a
challenge by respondents to the Department of Homeland Security's Public Charge
Rule.
Respondents seek a thirty-day extension of time to respond to the petition. The
current deadline is December 9, 2020, and a thirty-day extension results in a deadline
of January 8, 2021, to file an opposition. This is respondents' second request for an
extension.
Government Respondents seek additional time primarily to give each of the
sovereign and municipal respondents sufficient time to conduct further deliberation,
review the petition, and draft a response given the recent presidential election and
its potential effects on this litigation. The incoming administration has publicly
stated that it will reverse the Public Charge Rule within its first 100 days. See
The Eiden Plan for Securing Our Values as a Nation of Immigrants,
joebiden.com/immigration/ (last visited Nov. 19, 2020). Government Respondents
require additional time to consider the effects of this significant development on their
response to the petition-a deliberation process that requires consultation with
multiple government agencies and officials, including several layers of review.
28 LlBERTY STREET, NEW YORK,

NY

10005-1400 •

PHONE

(212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS

WWW.AG .NY.GOV

Government Respondents' Letter Extension Request
United States Department of Homeland Security v. State of New York, No. 20-449

Government Respondents also require additional time to consult with the private
nonprofit organizations that brought a separate lawsuit, consolidated by the district
court below, challenging the Public Charge Rule and that are also respondents here.
In addition to the need for consultation and deliberation, the press of other work
and the commitments of the attorneys most knowledgeable about this case have made
it difficult to prepare responses to the petition in the allotted time. The attorneys for
the State of New York, who are lead counsel for the Government Respondents, have
had multiple conflicting obligations in the past few months, including multiple
expedited filings with this Court and preparation for oral argument in Trump v. New
York, No. 20-366. The Office has also been engaged in fast-paced and ongoing litigation
about the application of certain Covid-19-related state orders to houses of worship,
including opposing motions to enjoin the orders pending appeal that were recently
filed with this Court.
Counsel for petitioners have stated that they oppose this request on the ground
that an extension would move the Court's consideration of the petition past the cutoff date for cases that could be argued this Term. Consideration of the petition at a
later time will not prejudice petitioners, however, because the Court has already
stayed the preliminary injunction that is the subject of petitioners' appeal until the
Court either denies certiorari or issues a judgment. See Department of Homeland Sec.
v. New York, 140 S. Ct. 599, 599 (2020). The requested extension will not affect that
stay.
Thank you for your consideration.

Respectfully,

Barbara D. Underwood
Solicitor General

cc:

Jeffrey B. Wall (counsel for petitioners)
Jonathan Hurwitz (counsel for private organization respondents)

2

